!>

Word Count
As required by Supreme Court Rules, I certify that the Petition for Rehearing
contains 1412 words, using the count provided by the word processing software. “I
declare under penalty of perjury that the foregoing is true and correct."
Executed on January 10, 2020,

Je^n Coulter, Petitioner
020 Butler Crossing #3, PMB 172
Butler, Pennsylvania 16001

Certificate of Service
I hereby certify that on the 10th day of January. 2020. served three (3) copies
of the Petition for Rehearing, upon Respondents at the address of their Counsel, by
pre-paid mail, along with one copy by email :
Rhonda J. Sudina
Robb Leonard Mulvihill
BNY Mellon Center
500 Grant Street, 23rd Floor
Pittsburgh, PA 15219
rsudina@rlmlawfirm.com

Jean Coulter, Petitioner
6^0 Butler Crossing #3
PMB 172
Butler, Pennsylvania 16001
412-616-9505

